HHS/OIG, Audit - "Review of Administrative and Clerical Costs at the
University of California, San Francisco, for the Period July 1, 2004, Through
June 30, 2006," (A-09-07-00073)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Administrative and
Clerical Costs at the University of California, San Francisco, for the Period
July 1, 2004, Through June 30, 2006," (A-09-07-00073)
March 10, 2008
Complete
Text of Report is available in PDF format (328 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of our audit was to
determine whether the University of California, San Francisco (the
University) claimed reimbursement for administrative and clerical expenses as
direct costs to National Institutes of Health grants, contracts, and other
agreements in accordance with applicable Federal regulations.  We found that the
University substantially complied with Federal regulations for claiming
reimbursement for administrative and clerical expenses.  The University made
minor clerical errors in charging costs.  However, University officials stated
that the errors have been corrected.  Consequently, our report contains no
recommendations.